IA

Appeal Case
Nineth Appellate District 18-14046

IN THE SUPR,EME COURT OF UNITED STATES

MADHU SAMEER
Appellant and Plaintiff V

RIGHT MOVE 4 U ET AL
Respondents and Defendants

AFTER THE NINETH CIRCUIT AFFIRMED ON APPEAL
Judgments from Judge Ishii

MOTION FOR PERMISSION TO FILE OVERLENGTH BRIEF

Appellant and Petitioner:
MADHU SAMEER
5 Old Hospital Road,Rd # 1,
Whangaroa 0478,New Zealand
Appellant,Self Represented
Madhu.bambroo@gmail.com

RECEIVED
AUG 2 6 2020
OFFICE OF THE CLERK
SUFBIgIVIECOMRT, U.S.

TO the Honorable Elena Kagan, Justice of the United States Supreme Court and Circuit
Justice for the Ninth Circuit:
I, am the Petitioner Madhu Sameer. I have prepared the concurrently filed Petition for Writ
of Certiorari that is longer than the permissible length of 40 pages.
This is a complex case, related to several cases that were also filed in new Zealand, and a
resulting bankruptcy in NZ. The background involves litigation in Federal Court, Eastern
District of California, Fresno County, and in Disputes Tribunal, District Court, High Court
and Court of Appeal in New Zealand.
Because of the complexity, and the international spread, I have been unable to reduce the
pagesize to 40 pages. Therefore I request that the Court grant me permission to file
oversized brief of 58 pages.
Alternately, given the complexity, I request that the Court give me time to amend the
Petition and refile it, preserving jurisdiction.
JURISDICTION
This Court's jurisdiction is invoked under 28 USC 1254(1).

BACKGROUND
The dispute arises from my relocation from Fresno, CA, to Christchurch, New
Zealand in 2015. I entered into a contract with a local mover to move my household goods
to New Zealand. I later found out that the local agent and their associate in fact enterprise
members are well known for swindling customers. My cargo seems to have been stored ondeck without my knowledge. Part ofmy cargo was converted, and the rest, when it arrived
in New Zealand, it was "hijacked," and I was blackmailed — as these parties attempted to
extort more and more and more money from me.
While such blackmail was in progress, it was discovered that the cargo was severely
damaged — as all cargo stored on-deck usually is exposed to higher risk factors. Defendants
then conspired with each other to cancel my insurance, and extort a waiver of liabilities
from me. When I received to comply with their demands, they destroyed the Bill of Lading,
and forged a new one with language that was meant to prevent me from making a claim for
damages.
Thru this and additional forgery, perjury, and false statements, defendants lured the
NZ Courts to make orders against me, in clear absence of jurisdiction and in excess of
jurisdiction. Having done so, they then had me declared bankrupt — all with the goal of
invoking the exception clause, and illegally evading liabilities for the damage of cargo.
21 Page

It has been found that the defendants are engaged into a racketeering enterprise.These
and other acts of the defendants are criminal in nature. I am not the only victim, at least 120
victims of the alleged enterprise members have been identified in the last 3 years. The
conspiracy is ongoing, there is a threat of continuity, and no defendant has left the
conspiracy.
WHY PERMISSION TO FILE OVERSIZED BRIEF MUST BE GRANTED

The underlying case is fact rich, and concerns litigation spanning 6 years, in Federal Court,
Ninth Circuit Appellate Court. In litigation spilled onto New Zealand Courts, in Disputes
Tribunal, District Court, High Court, Appellate Court and Bankruptcy Court. Among other
things, the complaint involves international crime, forgery of documents, and several crimes
against United States.
I have attempted to make the Petition concise, but have been unable to reduce it in size
without compromising the integrity of the cause. The proceedings in so many courts, and
the laws of so many countries makes for extra length.
All this extrinsic fraud, depriving me of my day in the court for the past 6 years reaffirms
the allegations of conspiracy and casefixing. KHERA is now an unintended beneficiary of a
conspiracy to protect the high profile defendants, especially DAVILA and ZAYNER, from
liabilities.
Till date, I have been forced to pay $7,000.. My household goods worth over $350,000 have
been stolen, converted and some of it has been liquidated. Defendants have engaged in
forgery, perjury and freaud upon the court. Yet the Courts have not only ruled in their favor,
they have sanctioned me to an amount of over $60,000 and I have been declared bankrupt —
all without without due process.
The allegations, laws, information about these proceedings being held in US and in NZ did
not fit in 40 pages. I am a pro se litigant, and therefore was undecided as to how much
brevity was appropriate.
Therefore I request that the Court allow me to file this oversized brief of approx. 51 pages,
plus appendices.
CONCLUSION
Supreme Court has cautioned Courts to not act impotent in the face of fraud and
injustice[Tirouda v.State,No.2004-CP-00379-COA.Missisippi,2005;We decline to interpret
our rules so as to render the defrauded court impotent to rectify this situation].

3 1Page

The Court has a special obligation to construe pro se litigants' pleadings liberally[See
also, United States v.Miller,197 F.3d 644,648 (3rd Cir.1999); Poling v.K.Hovnanian
Enterprises,99 F.Supp.2d 502,506-07 (D.N.J.2000)]. When interpreting pro se papers,
Court is required to use its own common sense to determine what relief that party either
desires, or is otherwise entitled to. IS.E.C.v.Elliott,953 F.2d 1560,1582 (11th Cir.1992)].
,"If the court can reasonably read the submissions,it should do so despite failure to cite
proper legal authority,confusion of legal theories,poor syntax or sentence construction,or a
litigant's unfamiliarity with particular rule requirements. [Boag v.MacDougall,454
U.S.364,102 S.Ct.700,70 L.Ed.2d 551(1982);Estelle v.Gamble,429 U.S.97,106,97
S.Ct.285,50 L.Ed.2d 251(1976).
I request that the Court grant me permission to file overlength brief of approx. 51 pages.
Great injustice will result, and I will suffer irreparable harm if my request is denied, as I
may not be able to properly present my case before this Court.
Alternately, I request additional time to amend the complaint. The Court may, at its
discretion, decide on size of the brief .and allow me a chance the amend the Petition.
Great and irreparable harm will result if my request is denied.
Respectfully Submitted
)
8/22/2020 (New Zealand)

Madhu Sameer,Petitioner,Pro Se

4IPage

